No. 20-1158

In the
Supreme Court of the United States
THE NORTH AMERICAN MISSION
BOARD OF THE SOUTHERN
BAPTIST CONVENTION, INC.,
Petitioner,
v.
WILL McRANEY,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit
BRIEF OF AMICI CURIAE NATIONAL LEGAL
FOUNDATION AND INTERNATIONAL
CONFERENCE OF EVANGELICAL CHAPLAIN
ENDORSERS
in Support of Petitioner
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

Frederick W. Claybrook, Jr.

Counsel of Record

Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

1
STATEMENTS OF INTERESTS1
The National Legal Foundation (“NLF”) is a
public interest law firm dedicated to the defense of
First Amendment liberties and the restoration of the
moral and religious foundation on which America
was built. The NLF and its donors and supporters,
including those in Maryland and Delaware, seek to
ensure that the free exercise of religion and the
autonomy of religious organizations is protected.
The International Conference of Evangelical
Chaplain Endorsers (“ICECE”) has as its main
function to endorse chaplains to the military and
other organizations requiring chaplains that do not
have a denominational structure to do so, avoiding
the entanglement with religion that the government
would otherwise have if it determined chaplain
endorsements. ICECE safeguards religious liberty
for chaplains and all military personnel.
SUMMARY OF ARGUMENT
This case presents an important aspect of the
contours of the church autonomy doctrine: to trigger
the doctrine and its ministerial exception, does a
religious organization have to come forward with
evidence that its dealings with an organizational
partner were motivated by a “valid” religious purpose
The parties were given timely notice and have
consented to the filing of this brief in writing. No counsel
for any party authored this brief in whole or in part. No
person or entity other than Amici and their counsel made
a monetary contribution intended to fund the preparation
or submission of this brief.
1

2
when those dealings allegedly led to the partner’s
firing of a minister. The Fifth Circuit held that it
does, but that is inconsistent with the doctrine’s
purpose and with this Court’s precedent.
The wisdom of this Court’s rule that the judiciary
must dismiss cases related to ministerial
employment by religious organizations—without the
need for evidence of religious purpose related to the
employment action—is shown by this Court’s
analogous precedent regarding qualified immunity
for government officials. That immunity protects
officials from having to defend by presenting
evidence of their subjective intent, and the same
reasons for that rule support the protections afforded
religious officials by the church autonomy doctrine
and its ministerial exception.
ARGUMENT
The petition ably presents reasons for the
granting of the writ to resolve issues related to the
church autonomy doctrine. As Justices Thomas and
Alito warned in their concurring opinions
in Hosanna-Tabor Evangelical Lutheran Church and
School v. EEOC, 565 U.S. 171 (2012), application of
the doctrine and its ministerial exception cannot
properly be dependent on the organizational
structure of the particular religious denomination or
organization. Id.
at
197
(Thomas,
J.,
concurring); id. at 198 (Alito, J., concurring). Yet,
Rev. McRaney argued it was the less hierarchical
structure of Southern Baptists that distinguished his
case from Hosanna-Tabor, and it was that argument
that prevailed in the circuit court.

3
Your Amici emphasize here that a central benefit
of the church autonomy doctrine is to allow all
religious organizations, of whatever overall
structure, to avoid the fiscal and ministry cost
necessarily
incurred
by
litigation
of
the
organization’s rationale. These benefits for religious
organizations are remarkably similar to those
identified by this Court in its cases granting
qualified immunity, on objective grounds, for public
servants. For all these reasons, the petition is well
taken.
I. This Court Should Grant the Writ to
Confirm That a Religious Organization Does
Not Have to Put on Evidence of Its
Subjective, Religious Intent to Avail Itself of
Its First Amendment Protections
Some may believe the Fifth Circuit’s decision in
this case to be Solomonic by ruling against the
mission board but holding out the possibility that the
mission board may ultimately prevail in a remand to
the district court. There, per the circuit court, the
board must present evidence that its alleged actions
that led to the discharge of Respondent were, at least
in part, motivated by religion, with the trial court to
determine whether those reasons were “valid.”
McRaney v. N. Am. Mission Bd. of the S. Bapt. Conv.,
966 F.3d 346, 351 (5th Cir. 2020). But in crafting
this resolution, the Fifth Circuit undercut a basic
principle of the church autonomy doctrine and
violated this Court’s precedent.
The church autonomy doctrine recognizes, quite
simply, that the judiciary has no business meddling
in a religious organization’s internal affairs, which

4
are inextricably linked with the organization’s and
its members’ free exercise of religion. Moreover,
judges are constitutionally incapacitated from
adjudicating religious doctrine and belief. This was
all explained by this Court in Hosanna-Tabor,
leading to the conclusion that the church autonomy
doctrine does not “safeguard a church’s decision to
fire a minister only when it is made for a religious
reason.” 565 U.S. at 194; see also Our Lady of
Guadalupe Sch. v. Morrissey-Berru, 140 S. Ct. 2049,
2060 (2020).
Moreover, this Court has frequently noted that
the very exercise of putting on evidence of religious
motivation has a chilling effect on the free exercise of
religion, with the natural result of affecting how
personnel decisions will be made. For example,
when this Court approved the religious organization
exception of Title VII in Corporation of the Presiding
Bishopric of the Church of Jesus Christ of Latter-day
Saints v. Amos, 483 U.S. 327 (1987), it explained
that, if a religious organization were required, “on
pain of substantial liability, to predict which of its
activities a secular court will consider religious . . .,
an organization might understandably be concerned
that a judge would not understand its religious
tenets and sense of mission. Fear of potential
liability might affect the way an organization
carrie[s] out what it underst[ands] to be its religious
mission.” Id. at 336. Justice Alito in Hosanna-Tabor
reiterated these concerns: “[T]he mere adjudication
of . . . questions [regarding the “real reason” for the
dismissal of a religious employee] would pose grave
problems for religious autonomy: It would require
calling witnesses to testify about the importance and
priority of [a] religious doctrine . . . , with a civil

5
factfinder sitting in ultimate judgment of what the
accused church really believes, and how important
that belief is to the church’s overall mission.” 565
U.S. at 205–06 (Alito, J., concurring). The Fifth
Circuit’s ruling cannot be squared with this
precedent.
II. This Court’s Qualified Immunity Cases
Demonstrate Why Religious Organizations
Cannot Be Required to Make Evidentiary
Showings of Their Subjective Motivations
While this Court’s church autonomy precedent is
more firmly rooted in the Constitution than its
precedent regarding qualified immunity for officials
accused of violating federal civil rights, qualified
immunity precedent does demonstrate the wisdom of
the rule that religious organizations should not be
required to make a showing of “valid religious
reasons” for their actions. The reasons for rejecting a
subjective test for qualified immunity apply in
spades to the ministerial exception.
In Harlow v. Fitzgerald, 457 U.S. 800 (1982), this
Court scuttled its subjective test for qualified
immunity.
The reasons it gave included (a) a
subjective test often defeats summary judgment and
opens the door to proof that requires jury resolution,
id. at 815-16; (b) a subjective test involves
substantial costs in addition to the general costs of
litigation, including “distraction of officials” from
their normal duties and (c) “inhibition of
discretionary action” by those accused of wrongdoing,
id. at 816; and (d) “questions of subjective intent”
provide “no clear end to the relevant evidence” and
“broad-ranging discovery and the deposing of

6
numerous persons,” id. at 816-17. The Harlow Court
summed up, “Inquiries of this kind can be peculiarly
disruptive of effective government.” Id. at 817.
The parallels to what would happen if, as the
Fifth Circuit has required in this case, trial courts
were to require religious organizations to put
forward evidence of their subjective motivations for
an employment action in order to prove that they
were sufficiently religious to invoke the church
autonomy doctrine are obvious. It would open the
church doors to exactly what the doctrine is designed
to avoid: general litigation expense, distraction of
ministers from their duties, inhibition of their
exercise of their offices, and overall disruption of the
religious mission of the organization.
CONCLUSION
The Fifth Circuit’s decision highlights that this
Court needs to provide further guidance to the lower
courts, reinforcing that the church autonomy
doctrine and its ministerial exception do not permit
courts to inquire into the subjective intent of
religious officials or adjudicate whether their
motivations are sufficiently or validly religious when
they deal with internal governance and employment
decisions. The wound the Fifth Circuit has made in
the doctrine, requiring religious organizations to
present evidence of their subjective intentions,
should be stanched immediately.
The petition for review should be granted.
Respectfully submitted

7
on this 25th day of March 2021,

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
Rick@Claybrooklaw.com
Steven W. Fitschen
James A. Davids
National Legal Foundation
524 Johnstown Road
Chesapeake, Va. 23322
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

